                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A12040025                                                                         Page 1 of 1



                                                       Closeout

                 We conducted an inquiry into an allegation that an NSF Proposal 1 with a PI and co-PrZ
         (Subject) contained plagiarized text. In the inquiry response, the co-PI accepted responsibility for
         almost all of the copied text, stating that software had deleted citations. We referred an
         investigation of the co-PI's actions to the University. 3 In the Subject's interview, he stated that he
         had meant to return to the text to include citations. The University pointed out that he had,
         however, had time to modify the text to fit his area. Further, computer records did not provide
         supporting evidence for accidental citation deletion. The University concluded the Subject
         knowingly plagiarized and we concurred with their assessment.

                We recommended actions to protect the federal interest and the Senior Advisor to the
         Director concurred with our recommendations.

                 This memo, the attached Report of Investigation, and the Senior Advisor's letter
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
                                NATIONAL SCIENCE FOUNDATION
                                   4201 WILSON BOULEVARD
                                  ARLINGTON, VIRGINIA 22230




                                                                            FEB 1. 5 2014
      OFFICE OF THE
        DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:    Notice of Research Misconduct Detetmination


Dear-:




                             As documented in the attached Investigative Report prepared by
NSF's Office of Inspector General (OIG), this proposal contained plagiarized material.


Research Misconduct and Proposed Sanctions

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes; results or words
without giving appropriate credit." 45 CFR 689.l(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community;
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence:

45 CFR 689.2(c).

As your employer, the                                      concluded and the NSF OIG
concurred, your proposal to NSF contained copied material. Your submission of a proposal with
                                                                                             Page2
copied material constitutes plagiarism and meets the applicable definition of "research
misconduct" set forth in NSF's regulations. Pursuant to NSF's regulations, the Foundation must
also determine whether to make a finding of misconduct based on a preponderance of the
evidence. 45 CFR 689.2(c). After reviewing the OIG's Investigative Report, NSF has
determined that, based on a preponderance of the evidence, your plagiarism was committed
knowingly and constituted a significant departure from accepted practices of the relevant
research community. I am, consequently, issuing a finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a fmding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consUltants; and debarment or suspension from
participation in NSF programs. 45 CFR 689~3(a)(3).

In detenriining the severity of the sanction to impose for research misconduct, I am persuaded by
the seriousness of the misconduct and the determination that it was committed knowingly. I
have also considered other relevant circumstances. 45 CFR 689.3(b).

After assessing the relevant facts and circumstances of this case and NSF's regulations, I am
taking the following actions:

    •   You must certify that you have complied fully with any- imposed sanctions;
    •   Within one year of the date of this notice, you must complete a responsible conduct of
        research training program, for which the instruction should be an interactive format (e.g.,
      · an instructor-led course) and which specifically includes plagiarism. You must provide
        documentation of the program's content and proof of its completion to the OIG;
    • For a period of one year from the date of this notice, you are required to submit
        certifications to the OIG that any proposal or report you submit to NSF as a Principal
        Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material;
        and
    • For a period of one year from the date of this notice, you are required to submit
        assurances from a responsible official of your employer that any proposal or report you
        submit to NSF as a Principal Investigator or co-PI does not contain plagiarized, falsified
        or fabricated material.

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.
                                                                                                       Page 3



· Procedures Governing Appeals ·

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
fmding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final.

 For your information, we are attaching a copy of the .....,,J......,u.u.•..., regulations. Should you have
 any questions about the foregoing, please contact                             Deputy General Counsel, at
 (703)292. . . .



                                                            Sincerely,

                                                          r:>-"yz:#~;:rJVV~
                                                            FaeKorsmo
                                                            Senior Advisor to the Director



 Enclosures:
 Investigative Report
 45 CFR Part 689
SENSITf\lE                                                                              SENSITIVE




       National Science Foundation
         Office of Inspector General




                   Report of Investigation
                  Case Number A12040025
                           September 3, 2013

                          This Report of Investigation is provided to you
                          .         FOR OFFICIAL USE ONLY.
   It contains protected personal information, the unauthorized disclosure of which may result in
   personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 . disclosed within NSF only to individuals who must have knowledge of its contents to
   facilitate NSF's assessment and resolution of this matter. This report may be disclosed
   outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
   552a. Please take appropriate precautions handling this report of investigation.

                                                                               NSF OIG Form 22b (1/13)
SENSITIVE                                                                                                                                                                                 SENSITIVE


                                                                                   Executive Summary

Allegation:                               Plagiarism in an NSF proposal.

OIG Inquiry:                              OIGidentified 2 soutces from which approximately 42lines of text was
                                          copied text into anNSF proposal that had both a;PI (Subjectl) and co-PI
                                          (Subject2). During our inquiry, Subject2 took responsibility for one of the
                                          sources, or 38lines, stating that software deleted his attribution. Subjectl
                                          took responsibility for the remaining source, 4 lines. OIG referred
                                          investigation· of only Subject2' s actions.

University.·                              The University concluded that Subject2 knowingly plagiarized and took the
l'!!'!!."!t:r~~+i-~~4-in.--- ~~A          f".niin..'!:"!~"!"!.l"'!'"
                                          .1.V.I.l.VYlll~
                                                                       ..,r-+;.t"!.?!.!:"• 1\    A
                                                                                           .LJ J.. .1..
                                                                                                          iat+.n.'!"     n.+ 'f".O.?"!.~~-:!~ti.            h.n. ~1Qr'ori ;" ~nh;coro'f·J' C'                                no.'!"'[."'.n:t"\'!"H:'Io.'i
.ILAA.Y""LJI._I.f!;A.I..I.ULI. A.I..A.U
                                                                 5     U.'-'L.LVJ.l..::J •                .LVL.L\.o~.L   V.I. .1.'-".l-'.l..u.LLU..LU...I- U..._. 1-'.LLU.,..'-'U- .L.I...1.   1-JU.Lij'-''-''-.L.<   .._,   t''-'.l.~V.I..LI..U..•.I.


Action:                                   file; 2) Three years of certifications to the RIO; and 3) 10 hours of RCR
                                          training, with no more than 5 hours :from online sources.

OIG's Assessment:                          •         The Act: Subject2 plagiarized 38lines from 1 source into 1 NSF
                                                     Proposal.
                                           •         Intent: Subject2 acted knowingly.
                                           •         Significant Departure: Subject2's actions are a significant departure
                                                     from the accepted practices of the research community.
                                           •         Standard of Proof: The preponderance of the evidence supports the
                                                     conclusion regarding the act and intent, and therefore a finding of
                                                     research misconduct.                                            ·

OIG                                        •         Send Subject2 a letter of reprimand notifying him that NSF has made a
Recommendation:                                      finding of research misconduct.
                                           •         Require Subject2 to certify compliance with the requirements imposed
                                                     by the University.
                                           •         Require Subject2 to certify completion of an RCR course.
                                           •         Require Subject2 to submit certifications for 1 year.
                                           •         Require Subject2 to submit assurances from his employer for ·
                                                     1 year.
                                           •         Bar Subject2 from participating as a reviewer, advisor, or consUltant for
                                                     NSF for a period of 1 year.




                                                                                                                                                                                                                                                1
SENSITNE                                                                                                       SENSITIVE


                                                                                               OIG's Inguiry

       Our inquiry into plagiarism in an NSF Proposal1 found 42 lines of apparently copied text
from 2 sources. 2 The two subjects, a PI (Subject!) and co-PI (Subject2)3 sent a joint response to
our inquiry letter with each taking responsibility for the copying from one of the two sources. 4

        Subject2 took responsibility for the copying from Source A, which comprised about 38
lines of text. He stated that a previous version of the Proposal had contained the citation, but a
LaTeX conversion (merging the two authors' bibliographies) caused the citations to disappear.
He said that the copied text "relates to definitions of key terms" and was "paraphrased." We
noted that the text was verbatim and was not limited to defmition:..type phrases. He did not
~.r1r1'1"'.o.C'C'   +h.o     l.,"t,..- n-F '1.'-'-VIi,.'"-"U
                                              n11nfp,c.- n-r       n.-Ff'c.-.o.t t.::::a.v+
~u..J..\o.o'~U      ~  ..... .i.....,._..u...
                                       ~..a.                 V.i.. V..i..i...::J"'IIo.
                                                                                  ~.a...li..




         Based on our inquiry, we concluded that Subject! 's copying of 4lines oftext did not rise
to the level of research misconduct and we make no recommendations about Subject! in this
report. However, we concluded that there was sufficient evidence to proceed to an investigation
of Subject2's actions, and therefore we referred an investigation to Subject2's university 6
(University). 7 ·                                    ·


                                                                         The University's Investigation8 , 9

        Consistent with its policy, 10 the University appointed an investigation committee
(Committee) to investigate the allegation. The Committee interviewed both Subject2 and
Subjectl. In Subject2's interview, he stated that he pasted in the source text and intended to
return to the copied block of text and revise it.ll A Committee member asked him how, if he had
not edited the text as he intended, small parts of sentences and individual words were slightly
modified. 12 Subject2 could not provide an adequate answer to the question. Because Subject2
claimed to OIG that LaTeX and BibTeX deleted some citations, another committee member
wondered how sonie sources remained cited, while the one in question was deleted. 13 Subject2's
answers were again inconclusive. For example, he stated, "[T]hey were in my BibTeX file and I
had cited them in previous articles. I thought I had cited them in the proposal for various sections




    Tab2.
5
    Tab 4, Cover Letter, p. f.

:•T•ab·5·colnltam···s·thlelrlefi.erra·l·lelttlerl.l
8
  Tab 6, The University's Investigation Report.
9
  Tab 7, Attachments to the University Report
10
   See Tab 6,                                                                                        . Because the
Dean declared a conflict-of-interest and recused himself, oversight of the matter was transferred to the Provost.
11
   Tab 8, University Report Attachments BiDder 3, p. 4 of interview (p. 54 of PDF)
12
   Tab 8, University Report Attachments, Binder 3, p. 10 of interview (p. 60 of PDF).
13
   Tab 8, University Report Attachments, Binder 3, p. 12-13 of interview (p. 62-63 of PDF).


                                                                                                                           2
SENSITIVE                                                                                                                                                  SENSITIVE

                                                                                                                                                                       14
as well and that was why I was upset about that they are missing from the list of references."
He also asserted that he did not need quotations marks for portions of source text which
consisted of the author's definitions of concepts, even though the precise definitions are not
                _.L p<~nPr<>
c.nrnrnnn in nthPr
-~~~- ...... .~....&...&..         J-lp
                      _.t"_..._u ....       <>t<~tPrl in hi<> intPruipur "T'hP re"'"'"'"
                                      ...__ vi.Uo._._
                             _....._ ...                                            .L.L.L
                                                                                                   T .t'.a.""".a.'L--
                                                                                 _...,"-J.......,. ..... nil"lrPrl tt.is  narrtii"Hbr
                                                                                                                      LlU 1:"'                      n;.npr...........
                                                                                                                               .,..._,..._..."""""' .t'-1""'""
                                                                                             .&..&...O.'-' ............. _. ... ...... _..,.'{,   a.   -       ;.,
                                                                                                                                        15
because they formally define these terms, as opposed to other papers in [this field]."

        The Committee reviewed Subject2's LaTeX files and previous versions of the Proposal
but did not fmd.evidence that the pages were originally cited. A Committee member very familiar
with LaTeX did fmd indications, however, that "the plagiarized text was a conscious decision
rather than a careless mistake." 16 They also found that he made slight modifications to the source
text in order to erisure it fit his subtly different area. The Committee stated, "Given the amount of
text copied, we would rule this action as plagiarism even if the proper citation had been found in
prior versions; and we seriously doubt that any author would dare include the source from which
c<'!:"L~h   n   in"!"'r>r~ h'i~_n,'i_..- n..f' +£1"Lr+          '!:HrH'I! +nira.?"!      ;;17
.:loU.\..I.L.l U. .l.Ul.C,V Ll.l.V""'.L"- VJ..   '-'"'.t\..'-   VYU.Jo   '-UA\.JJ.~ ..




                 In Subject1 's interview, he asserted that Subject2 was only responsible for two parts of
the proposal: 1) the section that he copied almost verbatim from Source A; and 2) another, later
section with his preliminary results. Subjectl stated that he had not seen Subject2's contributions
until the day the proposal was submitted.

          The Committee reviewed other documents and determined that there was no apparent
  pattern of plagiarism. 18 The Committee concluded, based on the preponderance of the evidence,
. that Subject2 knowingly, plagiarized material into his portion of the Proposal. They
  recommended:
              •       A letter of reprimand be placed in Subject2' s personnel file;
              •       Three years of certifications to the RIO; and
              •       10 hours ofRCR training, with a maximum of 5 hours.from online sources.

 The Deciding Official 19 concurred with their findings and iinposed the above sanctions.

                                                                                                OIG's Assessment

         We assessed the Report for accuracy and_ completeness and whether the University
 followed reasonable procedures in its investigation. 20 We found that the general procedures were
 reasonable," the report was complete, and the University provided an acceptable evidentiary
 record. We were therefore able to accept the University's investigation in lieu of conducting our
 own.

         A finding of misconduct requires that: (1) there be a significant departure from accepted
 practices of the relevant research community, (2) the research misconduct be committed


 14
    Tab 8, University Report Attachments, Binder 3, p. 12 of interview (p. 63 ofPDF).
 15
    Tab 8, University Report Attachments, Binder 3, p. 4 of interview (p. 54 of PDF).
 16
    Tab 7, University Report, p. 6.
 17
    Tab 7, University Report, p. 7.
 18
    Tab 7, University Report, p. 7.
 19
 20
      45 C.F.R. §689.9(a).


                                                                                                                                                                            3
SENSITIVE                                                                             SENSITIVE


intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence. 21

                                                     The Act

        Subject2 admitted his responsibility for the 38 lines of text copied from the Source into
his NSF proposal. Subject2's unattributecl copying is consistent with NSF's definition of
plagiarism. 22



       The CornT!'littee fonnd that Subject2 '.Vas aware of what con.stii'.1tes plagia.rism23 and
concluded Subject2 acted knowingly. We concur with the Committee's assessment.
       Despite Subject2's claims that he intended to revise and condense the pasted text,
Subject2 clearly altered parts of the text to more accurately reflect his subtly different research
area and proposition and to make it appear as though he had more expertise in the sub-area of
research. Subject2' s statement in his interview that he was less familiar with the area related to
            24
the copying indicates that he knowingly used another's words to create the impression for
reviewers that he had mastered the subject area. Subject2's actions demonstrate that he was
aware of the fact that he was using another researcher's verbatim text.

                                               Standard o(Proo(

        The preponderance of the evidence supports that Subject2 knowingly plagiarized and that
his actions were a significant departure from the accepted practices of the relevant research
corrimunity. We therefore conclude
                            '
                                     that Subject2's actions constitute
                                                                .
                                                                        research misconduct.

                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
                                                                                                          .l
             misconduct was knowing, mtentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 25




21
   45 C.F.R. 689.2(c).
22
   45 C.F.R. 689.l(a)(3)
23
   Tab ·7, University Report, p. 6.
24
   Tab 8, University Report Attachments Binder 3, p. 5 of interview (p. 55 of PDF).
25
   45 C.P.R. 689.3(b).


                                                                                                      4
SENSITIVE                                                                         SENSITIVE


                                                      Seriousness

           The amount of text copied by Subject2 is less that in some cases olir office has
investigated; ho\x.lever, the lines are contig1Ious, resulting in more than one page of copied text iil
the proposal.
           In evaluating the seriousness ofSubject2's actions, we are struck by the fact that
copied text describing various processes occurred in the vicinity of or included the word "we",
leaving the reader with the strong impression that the Subjects had authored an original
description of research they carried out. In fact, Subject2 admitted he was unfamiliar with this.
area and the text is the source document author's description of the steps the author took. This
attempt to misrepresent his background knowledge is a serious attempt to mislead to NSF
reviewers.

                                  Pattern and Impact on the Research Record

        We reviewed the University's assessment of pattern based on the three articles and the
NSF CAREER proposal and concurred with their conclusion that there is no pattern of        ·
plagiarism. Subject2's act has no effect on the published research record.

                                                  Recommendations

Based on the evidence, OIG recoinmends that NSF:
       • Send Subject2 a letter of reprimand notifying him that NSF has made a fmding of
           research miscoi:tduct. 26                 ·                   ·
       • Require Subject2 to certify his compliance with the requirements imposed by the
           University as a result of its investigation.                                        ·
       • Require Subject2 to certify to the Assistant Inspector General for Investigations
           (AlGI) his completion of a responsible conduct of research training program and
           provide documentation of the program's content within 1 year ofNSF's finding? 7.
           The instruction should be in an interactive format (e.g., an instructor-led course) and
           specifically include instruction on plagiarism.

For a period of 1 year as of the date ofNSF's finding:
        • Bar Subject2 from participating as a peer reviewer, advisor, or consultant for NSF. 28
        • Require for each document (proposal, report, etc.) to which Subject2 contributes for
           submission to NSF (directly or through his institution),
               o Subject2 to submit a contemporaneous certification to the AlGI that the
                                                                                        29
                   document does not contain plagiarism, falsification, or fabrication.
               o Subject2 to submit. contemporaneous assurances from a responsible official of
                   his] employer to the AlGI that the document does not contain plagiarism,
                   falsification, or fabrication. 30

 26
     A Group I action 45 C.F.R. 689.3(a)(l)(i).
 27
     This action is similar to Group I actions 45 C.F.R 689.3(a)(l) .
  28
.    A Group III action 45 C.F.R. 689.3(a)(3)(ii).
  29
     This action is similar to 45 C.F.R 689.3(a)(l)(iii).
  30
     A Group I action 45 C.F.R. 689.3(a)(l)(iii).


                                                                                                          5
SENSITIVE                                                                   SENSITIVE



                  Subject2's Response to OIG's Draft Investigation Report

          We sent Subject2 a copy of our draft report and he responded that he no further
comments. 31                              .




31
     Tab 9.


                                                                                            6
